E-Mail Address: 775 H Street, N.E.

Est Yea briefs@wilsonepes.com Washington, D.C. 20002
WSO PT Web Site: Tel (202) 789-0096
aces www.wilsonepes.com Fax (202) 842-4896

Nos. 19-251, 19-255

AMERICANS FOR PROSPERITY FOUNDATION, Petitioner,
v.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS
ATTORNEY GENERAL OF CALIFORNIA, Respondent.

THOMAS MORE LAW CENTER, Petitioner,
Vv.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS
ATTORNEY GENERAL OF CALIFORNIA, Respondent.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on March 1, 2021, three (3) copies of the BRIEF OF THE FLOYD
ABRAMS INSTITUTE FOR FREEDOM OF EXPRESSION AT YALE LAW SCHOOL AS
AMICUS CURIAE IN SUPPORT OF NEITHER PARTY in the above-captioned case were served,
as required by U.S. Supreme Court Rule 29.5(c), on the following:

JOHN J. BURSCH AIMEE ATHENA FEINBERG

ALLIANCE DEFENDING FREEDOM CALIFORNIA DEPARTMENT OF JUSTICE

440 First Street NW 1300 I Street

Suite 600 Sacramento, CA 95814

Washington, DC 20001 (916) 210-6003

(616) 450-4235 Counsel for Respondent Xavier Becerra, in his

Counsel for Petitioner Thomas More official capacity as the Attorney General of
Law Center California

DEREK L. SHAFFER

QUINN EMANUEL URQUHART & SULLIVAN, LLP
1300 I Street NW, Suite 900

Washington, DC 20005

(202) 538-8000

Counsel for Petitioner Americans for
Prosperity Foundation
The following email addresses have also been served electronically:
fabrams@cahill.com
jbursch@adflegal.org
derekshaffer@quinnemanuel.com
Aimee.Feinberg@doj.ca.gov
2. wAly

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 1st day of March 2021.

     

COLIN CASEY LOGAN
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
